CERTIFICATE OF SERVICE
I, the undersigned, hereby certify that on
March 5, 2021, at least three true and correct copies
of the Petition for Writ of Certiorari was served by
depositing into U.S. Mail Commercial Carrier, as
indicated below, and to the following:
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
DC] U.S. Mail or
DC] FedEx or UPS
Clerk of the Montana Supreme Court
215 N Sanders St #323
Helena, MT 59601
DC] U.S. Mail
Kent P. Saxby
Johnson, Berg & Saxby, PLLC
221 First Ave. East
PO Box 3038
Kalispell, MT 59903-3038
Attorney for Douglas Wold, Paul McCann, Jr.
DC] U.S. Mail

Genet McCann

